                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

      Case Number: A04050036                                                                   Page 1 of 1



                  A complainant1 forwarded to us an email sent by the administrative officer for an NSF
           division2 (the subject) to the division's staff. The email stated that a single cornpang was "[tlhe
           company that [the division] will be using for upcoming panels . . . ." The complainant was
           concerned first because the email reduced the options available for panelists; the complainant
           subsequently received complaints fiom panelists about the company's performance. The
           complainant pointed out that the company's website contained an endorsement by the subject.

                   Soon after we received the complaint, the subject left NSF. We found nothing indicating that
           the subject was associated with the company. We interviewed the subject, who stated that she had
           no association with the company. She told the division to use the company for that particular set of
           panels because they had received direction to stop using another company exclusively. She did not
           intend that the company would be used exclusively prospectively, and in fact, by the time she left
           NSF, the division had gone back to letting the program assistants decide themselves how to handle
           the arrangements for panelists.

                  There is no evidence that the subject's action was intended to favor the company
           inappropriately or avoid competition. Accordingly, this case is closed.




11'
  NSF OIG Form 2 (1 1/02)
